OIG Audit Report GR-70-09-006

Office of Community Oriented Policing Services Safe Schools Initiative Grants Administered by the Daniel Webster Council - Boy Scouts of America, Manchester, New Hampshire
Audit Report GR-70-09-006
August 2009
Office of the Inspector General


Executive Summary


The U.S. Department of Justice Office of the Inspector General  (OIG), Audit Division, has completed an audit of the Office of Community  Oriented Policing Services (COPS), Safe Schools Initiative (SSI) grants, under  grant numbers 2004-CKWX-0324, 2005-CKWX-0418, and 2006-CKWX-0553.  The Daniel Webster Council (DWC) - Boy Scouts  of America received a combined total of $1,234,868 from the grants to build the  character of at-risk youth in New Hampshire through in-school counseling and  outdoor activities.  The overall  objectives of the grants were to increase student success and to instill a  sense of personal responsibility in students during the school year. 
The objective of our  audit was to determine whether reimbursements claimed for costs under the grants  were allowable, supported, and in accordance with applicable laws, regulations,  guidelines, and the terms and conditions of the grants. We also evaluated the DWC’s program  performance in meeting grant objectives and overall accomplishments.
We  determined that the DWC was in material non-compliance with the grant  requirements we tested.  Specifically, we reviewed the DWC’s compliance with seven  essential grant conditions, and found material weaknesses in the grant  expenditures we tested. 
For the 2004,  2005, and 2006 grants collectively, we found that the DWC was unable to  support $882,737 in expenditures, including personnel and fringe benefits, and  other miscellaneous grant funded charges.   Additionally, we found a combined total of $101,189 in unallowable  expenditures charged to the grants.
In addition to  the questioned costs, we determined  that the DWC did not account for grant transactions separate from non-grant  transactions and submitted the majority of its Financial Status Reports  late.  As a result, our audit includes two management improvement findings related to the comingling  of funds and untimely financial status reporting.  
These items are discussed in detail in the Findings and  Recommendations section of this report.   Our audit objectives, scope, and methodology appear in Appendix I.  Our summary of the dollar-related findings  cited as questioned costs is included as Appendix II of this report.
We discussed the results of our audit with DWC officials and have  included their comments in the report, as applicable.  Additionally, we requested a response to our  draft report from the DWC and COPS, and their responses are appended to this  audit report in Appendices III and IV respectively.  Finally, our analysis of those responses and  the actions necessary to close the recommendations is included as Appendix V of  this report.



 




Return to OIG Home Page